                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 26, 2011                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Employee   Retirement Income Security Act Related Notices (A-13-11-01141)


        The attached report presents the results of our review. Our objective was to assess
        certain aspects of the Employee Retirement Income Security Act related notices the
        Social Security Administration issued to claimants about potential private pension
        benefits. This evaluation was conducted to determine whether claimants (1) took action
        in response to receiving the notices; (2) obtained pension benefits; and (3) found the
        information provided in the notices was accurate.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
      QUICK RESPONSE
       EVALUATION
Employee Retirement Income Security Act
           Related Notices
              A-13-11-01141




             September 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                           Background
OBJECTIVE
The objective of our review was to assess certain aspects of the Employee Retirement
Income Security Act (ERISA) related notices the Social Security Administration (SSA)
issued to claimants about potential private pension benefits. We conducted this
evaluation to determine whether claimants (1) took action in response to receiving the
notices; (2) obtained pension benefits; and (3) found the information provided in the
notices was accurate.

BACKGROUND
In 1974, as a result of concerns that funds of private pension plans1 were being
mismanaged and abused, Congress enacted ERISA. 2 Also known as the Pension
Reform Act of 1974, ERISA sets minimum standards for pension plans in private
industry. The administration of ERISA is divided among three Federal agencies—the
Department of Labor, Internal Revenue Service (IRS), and Pension Benefit Guaranty
Corporation.

Under ERISA and the Social Security Act (Act), 3 SSA is responsible for relaying
information it receives from the IRS 4 and Pension Benefit Guaranty Corporation to
certain claimants about potential private pension benefits. ERISA requires that the
Department of Health and Human Services maintain files of individuals who have
deferred vested benefit rights in a private pension plan, and furnish this information to
these individuals (and dependents or survivors) upon request or automatically when
they apply for Social Security benefits. This responsibility has been delegated to SSA. 5
These claimants may be eligible for deferred, vested benefits from private pension
plans. Generally, SSA sends Form SSA-L99-C1, Potential Private Pension Benefit
Information, 6 to new Social Security or Medicare claimants for whom it has information
about potential pension benefits.


1
  A pension plan is a plan, fund, or program of an employer or employee organization that provides
retirement income to employees. SSA, Program Operations Manual System (POMS), RM 03201.003
(July 30, 1996).
2
    Pub. L. No. 93-406, 88 Stat. 829 (Sept. 2, 1974). ERISA is codified at 29 U.S.C. §§1001 through 1461.
3
    Social Security Act §§1131, 42 U.S.C. §§1320b-1.
4
  According to Agency staff, the IRS sends information to SSA based on data provided by employers in
their annual submission of Form 5500, Annual Return/Report of Employee Benefit Plan.
5
    SSA, POMS, RM 03258.007 D (January 12, 2011).
6
    See Appendix B.


Employee Retirement Income Security Act Related Notices (A-13-11-01141)                                     1
Each month, SSA checks the name and Social Security number of each new claimant
for Social Security benefits or hospital insurance coverage to determine whether the
claimant is listed in SSA's electronic pension benefit record. SSA mails a notice to each
new claimant for whom it has pension benefit information, in compliance with
section 1131 of the Act. 7 If the claimant filed for the lump-sum death payment on a
relative’s Social Security account, SSA mails the claimant pension information
concerning the deceased individual. The notice shows the type, payment frequency,
and amount of private pension benefit, as well as the plan administrator’s name and
address as reported to the IRS. The claimant can use this information to request any
potential benefits due from the private pension plan. 8 Agency staff stated that SSA
mails about 90,000 notices each month.

The Act also requires that SSA provide available private pension benefit information
upon request. 9 SSA will provide this potential pension benefit information only to the
individual who has the pension coverage (or a legal guardian or parent, in the case of a
minor, on the individual's behalf). 10 However, if the individual is deceased, the
information may be provided to someone who would be eligible for any underpayment
of benefits that might be due the individual under section 204(d) of the Act. 11

SSA maintains policy related to ERISA requests and correspondence. The policy states
that field office personnel and 800-number agents can access the ERISA query screens
that allow them to provide individuals information about potential entitlement of private
pensions. 12

In June 2011, the Assistant Deputy Commissioner, Office of Retirement and Disability
Policy, requested that we study certain aspects of the Agency’s responsibilities under
ERISA. We assessed the ERISA-related notices the Agency issues to claimants.




7
    Social Security Act §§1131, 42 U.S.C. §§1320b-1.
8
    20 C.F.R. §422.122 (a).
9
    Social Security Act §§1131, 42 U.S.C. §§1320b-1.
10
     20 C.F.R. §422.122 (a).
11
     Social Security Act §§204(d), 42 U.S.C. §404(d).
12
     SSA, POMS, RM 03202.005 C (May 25, 2011).



Employee Retirement Income Security Act Related Notices (A-13-11-01141)                  2
To perform our assessment, we used an electronic file provided by SSA. According to
Agency staff, the file contained information for the ERISA-related notices mailed in
March 2011. For this period, SSA issued notices to 71,765 claimants. We noted that
notices included information about both private pension and 401(k) benefit plans. 13

We randomly selected 250 claimants to participate in our assessment. We sent letters
to the selected claimants or their representative payees explaining we would contact
them by telephone to discuss the ERISA-related notices. Of the 250 selected, we
spoke to 193 claimants. We were unable to contact 49 claimants by telephone, and
8 claimants declined to participate in the discussions. See Appendix C for our scope
and methodology.




13
   The IRS defines a 401(k) plan as a type of tax-qualified deferred compensation plan in which an
employee can elect to have the employer contribute a portion of his or her cash wages to the plan on a
pretax basis. Distributions from a 401(k) plan may qualify for optional lump-sum treatment or rollover
treatment as long as they meet the respective requirements. IRS, Topic 424 – 401(k) Plans, IRS.gov (last
reviewed or updated March 1, 2011), http://www.irs.gov/taxtopics/tc424.html.


Employee Retirement Income Security Act Related Notices (A-13-11-01141)                               3
                                                   Results of Review
We asked 193 claimants whether they received an ERISA-related notice from SSA. Of
the 193 claimants, 59 (31 percent) did not confirm receiving the notices—34 claimants
could not remember receiving the notices, and 25 reported they did not receive the
notices from SSA. We ended the conversation if the claimant did not confirm he/she
received the notice.

Of the 134 claimants who confirmed they received the notices, 88 (66 percent) indicated
they were aware of their possible eligibility for pension benefits before they received the
notice from SSA. Of the 44 (33 percent) who indicated they were not aware of the
possible pension before receiving the notice, most (82 percent) said the notices were
useful, but only 23 inquired about the potential benefits. Of the 23 who followed up on
the notices, 3 found they were eligible for lump-sum distribution [from a 401(k)] or
private pension benefits as a result of the notices, while 8 were still following up on their
notices from SSA.

MAJORITY OF CLAIMANTS AWARE OF POSSIBLE ELIGIBILITY FOR PRIVATE
PENSION BENEFITS BEFORE RECEIVING ERISA-RELATED NOTICES FROM SSA

Of the 134 claimants who confirmed
receipt of the ERISA-related notices,                  Chart 1: Claimants' Knowledge of Eligibility
the majority were already aware they                            Prior to Receipt of Notice
were eligible for private pension
benefits. A total of 88 claimants                                                  No Response
                                                                                       1%
(66 percent) reported they were
already aware of possible eligibility for
the private pension identified in the                                                     Notice
                                                                                          Useful
notices. See Chart 1 and                                            Unaware of
                                                                                           82%
Tables 1 and 2.                                                      Eligibility
                                                      Aware of          33%
                                                      Eligibility
                                                                                      Notice Not
For example, an Oregon resident                          66%
                                                                                      Useful 14%
reported he had already taken action
on his private pension benefits for the                                       No Response
company identified in the notice.                                              Provided 4%

When the claimant received the notice,
he thought he was eligible for
additional pension benefits. After contacting the company, he was told no additional
private pension benefits were due. The claimant stated the form contained outdated
and misleading information and was not useful.




Employee Retirement Income Security Act Related Notices (A-13-11-01141)                            4
                 Table 1: Claimants Already Aware of Eligibility
                        Responses                     Claimants           Percent
      Claimant Already Aware of Pension                   88                66
      Claimant Not Aware of Pension Before Receiving      44                33
      Notice
      Provided No Response                                 2                 1
             Total                                       134               100

Of the 134 claimants, 44 indicated they were not aware of possible eligibility for private
pension benefits before receiving the notices from SSA. A majority of these same
claimants (82 percent) reported finding the notices useful.

               Table 2: Usefulness of ERISA Related Notices for
        Claimants Not Aware of Eligibility for Private Pension Benefits
                        Responses                      Claimants Percent
      Notice Useful                                        36       82
      Notice Not Useful                                     6       14
      Provided No Response                                  2         4
             Total                                         44      100

ACTION TAKEN IN RESPONSE TO RECEIVING NOTICES

Of the 44 claimants who were not aware of their pension eligibility, 23 (52 percent)
contacted their former employer, the pension administrator identified in the notice, or
SSA (see Table 3).

                      Table 3: Follow-up Action Taken by
         Claimants Not Aware of Eligibility for Private Pension Benefits
                        Responses                       Claimants Percent
      Took Follow-up Action                                 23       52
      Did Not Take Follow-up Action                         21       48
             Total                                          44      100

Some claimants received information from SSA about more than one employer and
found they may have been eligible for a pension from a second company. Of the 23
who reported taking follow-up action, in the majority of cases, the follow-up actions did
not result in obtaining new, private pension benefits. However, three claimants found
they were eligible for pension benefits as a result of their follow-up (see Table 4).




Employee Retirement Income Security Act Related Notices (A-13-11-01141)                      5
                      Table 4: Results of Follow-up Completed by
           Claimants Not Aware of Eligibility for Private Pension Benefits
                            Responses                          Claimants Percent
     Not Eligible for Pension Benefits                             11      48
     Follow-up Actions Not Completed                                8      35
                                                            14
     Eligible for Pension Benefits as a Result of Follow-up         3       13
     Employer No Longer Exists                                      1        4
             Total                                                 23     100

Several claimants said they contacted the company reported on the notice, and were
told they were not eligible for private pension benefits. For example, one claimant
explained to us that after her husband passed away, she began receiving a pension
from his pension plan. However, she did not know about the 401(k) Employees
Retirement/Savings Plan discussed in the notice she received from SSA. She
contacted the company and found that her husband cashed out the 401(k) when he left
the company, and therefore, she was not entitled to any additional benefits. In another
instance, a claimant stated the pension belonged to her ex-husband, and she found she
was not eligible for any benefits.

CLAIMANTS INDICATED INFORMATION PROVIDED WAS ACCURATE

Generally, claimants indicated that the information identified in the notice was accurate.
Of the 134 claimants confirming receipt of the notices, 78 percent reported the notices
from SSA contained accurate information (see Table 5).

                    Table 5: Accuracy of Information on Notices
                            Responses                  Claimants                   Percent
        Information Correct                               105                        78
        Information Partially Correct                      16                        12
        Did Not Recall                                     13                        10
              Total                                       134                       100

Several claimants, however, reported finding the notice confusing. One claimant
reported not understanding the purpose of the form; another explained she was on
disability and originally thought there might be a pension benefit for her disability.
Another individual reported that when he received the notice from SSA, he first thought
he was entitled to an additional pension benefit. However, when he followed up, he
realized the notice was for a pension he was already aware of before receiving the
notice.




14
  Of the three claimants who received pension benefits, one claimant received a lump-sum distribution.
The remaining two claimants found they would be eligible for pension benefits once they reach retirement
age.


Employee Retirement Income Security Act Related Notices (A-13-11-01141)                                6
CLAIMANTS RECEIVED OTHER NOTICES AND COLLECTED PRIVATE PENSIONS

About 21 percent of the claimants who confirmed receiving SSA’s notice also
acknowledged receiving notification about eligibility for the private pension benefits from
organizations other than SSA (see Table 6).

          Table 6: Received Notice of Eligibility for Private Pension Benefits
                               from Other Organizations
                            Response                        Claimants Percent
          Did Not Receive Notice                               101       75
          Received Notice                                       28       21
          Provided No Response                                   5        4
                Total                                          134      100

Of the claimants who confirmed receiving notices, 45 percent either was collecting or
will collect private pension-related benefits (see Table 7).

                Table 7: Claimants Who Collect Private Pension Benefits
                             Responses                   Claimants Percent
          Did Not Indicate Private Pension Received          45         34
                                             15
          Collecting Private Pension Benefit                 35         26
          Will Receive Private Pension in Future             25         19
          Received/Will Receive Lump-Sum Distribution        26         19
          Provided No Response                                3          2
                 Total                                      134        100




15
     These claimants did not specify the type of pension received.


Employee Retirement Income Security Act Related Notices (A-13-11-01141)                   7
                                                                 Conclusions
Based on our discussions with 134 claimants who confirmed receipt of the ERISA-
related notices, 88 (66 percent) indicated they were aware of possible eligibility for
private pension benefits before they received the notices from SSA. Of the
44 claimants (33 percent) who indicated they were not aware of their possible pension
benefits before they received the notices from SSA, 23 followed up on the new
information. Of the 23 who followed up on the notices, 3 stated they received, or will
receive, new pension benefits as a result of the notices, while 8 were still following up
on their notices from SSA. Generally, claimants indicated the information identified in
the notice was accurate.




Employee Retirement Income Security Act Related Notices (A-13-11-01141)                     8
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Form SSA-L99-C1, Potential Private Pension Benefit Information
APPENDIX C – Scope and Methodology
APPENDIX D – OIG Contacts and Staff Acknowledgments




Employee Retirement Income Security Act Related Notices (A-13-11-01141)
                                                                          Appendix A

Acronyms
    ERISA                Employee Retirement Income Security Act

    IRS                  Internal Revenue Service

    OIG                  Office of the Inspector General

    POMS                 Program Operations Manual System

    Pub. L. No.          Public Law Number

    SSA                  Social Security Administration

    U.S.C.               United States Code

    Form

    SSA-L99-C1           Potential Private Pension Benefit Information




Employee Retirement Income Security Act Related Notices (A-13-11-01141)
                                                                          Appendix B

Form SSA-L99-C1 – Potential Private Pension
Benefit Information




Employee Retirement Income Security Act Related Notices (A-13-11-01141)
Employee Retirement Income Security Act Related Notices (A-13-11-01141)   B-1
Employee Retirement Income Security Act Related Notices (A-13-11-01141)   B-2
                                                                                    Appendix C

Scope and Methodology
To achieve our objective, we:

• Reviewed applicable Federal laws and regulations and sections of the Social Security
  Administration’s (SSA) Program Operations Manual System related to the Employee
  Retirement Income Security Act (ERISA). 1

• Reviewed prior Office of the Inspector General reports.

• Obtained from SSA an electronic file of 95,443, Form SSA-L99-C1, Potential Private
  Pension Benefit Information issued in March 2011. Through further analysis, we
  identified 71,765 claimants who received 1 or more ERISA-related notices and had a
  mailing address within the 48 contiguous United States.

• From this electronic file, we selected a random sample of 250 claimants for review.
  For each sampled individual, we:

       Reviewed records from SSA’s Master Beneficiary Record.

       Mailed claimants or their representative payees a letter informing them of our
        review and indicating we would be contacting them by telephone. We explained
        the purpose of the telephone call was to discuss the ERISA-related notices sent
        by SSA. For two claimants, we obtained mailing addresses but no telephone
        numbers. We mailed them up to two letters requesting they contact us by
        telephone to discuss the ERISA-related notices sent by SSA. We spoke to both
        claimants.

       Called claimants or their representative payees with valid telephone numbers up
        to three times. For those we were able to contact, we summarized responses to
        questions pertaining to (1) receipt and accuracy of Form SSA-L99-C1; (2) follow-
        up actions taken in response to receiving the notices; and (3) pension benefits
        obtained.

       Spoke with 193 of the 250 claimants in our sample. We were unable to contact
        49 claimants by telephone, and 8 claimants declined to participate in the
        discussions. Results of our attempts to contact selected claimants by telephone
        are in Table C-1.




1
    Pub. L. No. 93-406, 88 Stat. 829 (Sept. 2, 1974). ERISA is codified at 29 U.S.C. §§1001 through 1461.


Employee Retirement Income Security Act Related Notices (A-13-11-01141)                               C-1
            Table C-1: Results of Attempts to Contact Selected Claimants
                                                Claimants        Claimants
                       Claimants Claimants     Could Not be     Declined To
            Region     Selected Contacted       Contacted 2     Participate
       Atlanta                  52              44                  7                    1
       Boston                   11              10                  0                    1
       Chicago                  43              29                 13                    1
       Dallas                   23              16                  7                    0
       Denver                    9               4                  5                    0
       Kansas City               7               2                  5                    0
       New York                 26              22                  3                    1
       Philadelphia             31              28                  2                    1
       San Francisco            31              25                  4                    2
       Seattle                  17              13                  3                    1
       Total                   250             193                 49                    8


The entities reviewed were the Offices of the Deputy Commissioners for Operations,
Retirement and Disability Policy, and Systems. We performed our review in Baltimore,
Maryland, from June through August 2011. We conducted our review in accordance
with the Council of the Inspectors General on Integrity and Efficiency’s Quality
Standards for Inspection and Evaluation.




2
 If the telephone number was invalid, or the claimant did not answer at least three telephone call
attempts, we determined the claimant could not be reached.


Employee Retirement Income Security Act Related Notices (A-13-11-01141)                              C-2
                                                                          Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, Evaluation Division

   Florence Wolford, Acting Audit Manager

Acknowledgments
In addition to those named above:

   Tracey Edwards, Auditor-in-Charge

   Bryan Kaminski, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-11-01141.




Employee Retirement Income Security Act Related Notices (A-13-11-01141)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
